 Report No. D-2008-083            April 25, 2008




Obligation of Funds for Ship Maintenance and Repair
     at the U.S. Fleet Forces Command Regional
                 Maintenance Centers
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
ASN (FM&C)            Assistant Secretary of the Navy (Financial Management and
                         Comptroller)
CFFC                  Commander, U.S. Fleet Forces Command
DoD FMR               DoD Financial Management Regulation
DON                   Department of the Navy
IDIQ                  Indefinite-Delivery/Indefinite-Quantity
JFMM                  Joint Fleet Maintenance Manual
MSMO                  Multi-Ship/Multi-Option
NAVSEA                Naval Sea Systems Command
PBIS                  Program Budget Information System
RMC                   Regional Maintenance Center
STARS                 Standard Accounting and Reporting System
                             INSPECTOR GENERAL
                            DEPARTMENT OF DEFENSE
                             400 ARMY NAVY DRIVE
                        ARLINGTON, VIRGINIA 22202-4704



                                                                          April 25, 2008

MEMORANDUM FOR ASSISTANT SECRETARY OF THE NAVY (FINANCIAL
                 MANAGEMENT AND COMPTROLLER)
               COMMANDER, U.S. FLEET FORCES COMMAND
               COMMANDER, NAVAL SEA SYSTEMS COMMAND
               COMMANDER, REGIONAL MAINTENANCE CENTERS

SUBJECT: Report on Obligation of Funds for Ship Maintenance and Repair at the
         U.S. Fleet Forces Command Regional Maintenance Centers (RepOli
         No. D-2008-083)


      We are providing this report for infolmation and use. We considered
management comments on a draft of this report when preparing the final report.

        Comments on the draft of this report confonned to the requirements of DoD
Directive 7650.3 and left no umesolved issues. Therefore, no additional comments are
required.

       We appreciate the courtesies extended to the staff. Questions should be directed
to Mr. Kenneth B. VanHove at (216) 706-0074, extension 245 or Ms. Carrie A. Wade at
(216) 706-0074, extension 230. See Appendix B for the report distribution. The team
members are listed inside the back cover.




                                       f~a-ftl~
                                       Patricia A. Marsh, CPA
                                     Assistant Inspector General
                                  Defense Financial Auditing Service
                Department of Defense Office of Inspector General
Report No. D-2008-083                                                          April 25, 2008
   (Project No. D2007-D000FC-0151.000)

       Obligation of Funds for Ship Maintenance and Repair at the
       U.S. Fleet Forces Command Regional Maintenance Centers

                                  Executive Summary

Who Should Read This Report and Why? DoD contracting officials and the
Department of the Navy Regional Maintenance Center personnel involved in private
contracting for ship maintenance and repair projects should read this report. This report is
the first in a series addressing whether the Department of the Navy has obligated funds
for ship maintenance and repair in accordance with applicable Federal and DoD
regulations. The report discusses the business practices used to obligate funds for ship
maintenance and repair projects at the three U.S. Fleet Forces Command Regional
Maintenance Centers.

Background. Each fiscal year, the Department of the Navy receives Operation and
Maintenance funding for ship maintenance and repair. Operation and Maintenance funds
are available for obligation for one fiscal year. If funds are not obligated within that
period, they are generally not available for obligation. For FY 2007, the Department of
the Navy received approximately $3.8 billion in Operation and Maintenance funds for
ship maintenance and repair. The Assistant Secretary of the Navy (Financial
Management and Comptroller) provides Operation and Maintenance funds to: the
Commander, U.S. Fleet Forces Command; the Commander, U.S. Pacific Fleet; and the
Commander, Naval Sea Systems Command. The Commander, U.S. Fleet Forces
Command is responsible for programming and budgeting resources for ship maintenance
and repair at three Regional Maintenance Centers: the Mid-Atlantic in Norfolk, Virginia;
the Southeast in Mayport, Florida; and the South Central in Ingleside, Texas.

Each Regional Maintenance Center is led by a commander and is responsible for the
coordination and execution of ship repairs and modernization. Each Regional
Maintenance Center is also responsible for the budgeting, procurement, contract
administration, and technical direction for its assigned ships. The three U.S. Fleet Forces
Command Regional Maintenance Centers use private contractors to complete ship
maintenance and repair projects. They primarily use three types of contracts when
contracting with the private sector for ship maintenance and repair projects: multi-
ship/multi-option contracts, indefinite-delivery/indefinite-quantity contracts, and
firm-fixed-price contracts. Regardless of the contract type utilized, the contracts, options,
or orders serve as support for the obligation amounts recorded within the Navy’s
accounting system. The Department of the Navy uses the Standard Accounting and
Reporting System as its official accounting system for recording the obligation of funds.

Results. The Mid-Atlantic, Southeast, and South Central Regional Maintenance Centers
inappropriately obligated funds for contingent liabilities on ship maintenance and repair
contracts. As a result of the inappropriate obligations, at least $103 million of U.S. Fleet
Forces Command Operation and Maintenance funds were not available for other ship
maintenance and repair needs. The Assistant Secretary of the Navy (Financial
Management and Comptroller) should issue guidance prohibiting the obligation of funds
for contingent liabilities on ship maintenance and repair. The Commander, U.S. Fleet
Forces Command should develop and implement a plan to monitor the obligation of
funds at the Regional Maintenance Centers to ensure that the practice of obligating funds
for contingent liabilities is discontinued and that amounts for these items are deobligated
on current contracts. The Commander, Regional Maintenance Centers should
discontinue the business practice of obligating funds for contingent liabilities. In
addition, the Regional Maintenance Centers should deobligate funds on current contracts
for the contingent liabilities. See the Finding section of the report for the detailed
recommendations.

After communicating our concerns to the Assistant Secretary of the Navy (Financial
Management and Comptroller) and the Naval Sea Systems Command legal counsels
about the obligation of funds for contingent liabilities, the Assistant Secretary of the
Navy (Financial Management and Comptroller) responded with a memorandum dated
November 28, 2007. In the memorandum, they agreed with our conclusion that they
should discontinue the business practice of obligating funds for award fees pools and
growth pools. In addition, they indicated that the practice of obligating funds on
miscellaneous documents for contingent liabilities had been discontinued.

Department of the Navy internal controls were not effective, and we found a material
internal control weakness: existing Department of the Navy guidance does not clearly
define what constitutes a specific and definite need when obligating funds on ship
maintenance and repair contracts. See the Finding for further details on the material
internal control weakness.

Management Comments and Audit Response. We received comments from the
Assistant Secretary of the Navy (Financial Management and Comptroller) concurring
with our recommendations. The comments were responsive to the issues we identified in
our report, and no additional comments are needed. See the Finding section of the report
for a discussion of management comments and the Management Comments section of the
report for the complete text of the comments.




                                             ii
Table of Contents
Executive Summary                              i

Background                                    1

Objectives                                    3

Review of Internal Controls                   3

Finding
     Obligations for Contingent Liabilities    4
     Other Matters of Interest                12

Appendixes
     A. Scope and Methodology                 13
         Prior Coverage                       14
     B. Report Distribution                   16

Management Comments
     Department of the Navy                   17
Background
           Each fiscal year, the Department of the Navy (DON) receives Operation and
           Maintenance funding for ship maintenance and repair. Operation and
           Maintenance funds are available for obligation for one fiscal year. If funds are
           not obligated within that period, they are generally not available for obligation.
           For FY 2007, the DON received approximately $3.8 billion in Operation and
           Maintenance funds for ship maintenance and repair. The Assistant Secretary of
           the Navy (Financial Management and Comptroller) [ASN(FM&C)] provides the
           Operation and Maintenance funds to: the Commander, U.S. Fleet Forces
           Command (CFFC); the Commander, U.S. Pacific Fleet; and the Commander,
           Naval Sea Systems Command (NAVSEA). The CFFC is responsible for
           programming and budgeting resources for ship maintenance and repair at:

                •   Mid-Atlantic Regional Maintenance Center, Norfolk, Virginia;

                •   Naval Submarine Support Facility, Groton, Connecticut;

                •   Norfolk Naval Shipyard, Norfolk, Virginia;

                •   Portsmouth Naval Shipyard, Portsmouth, New Hampshire;

                •   Southeast Regional Maintenance Center, Mayport, Florida;

                •   South Central Regional Maintenance Center, Ingleside, Texas; and

                •   Trident Refit Facility, Kings Bay, Georgia.

           This report is the first in a series addressing whether the DON has obligated funds
           for ship maintenance and repair in accordance with applicable Federal and DoD
           regulations. This report discusses the business practices used to obligate funds for
           ship maintenance and repair projects at the three CFFC Regional Maintenance
           Centers (RMC). The three CFFC RMCs use private contractors to complete ship
           maintenance and repair projects. The office of the Commander, Regional
           Maintenance Centers in Norfolk, Virginia was established on October 1, 2007, to
           lead the RMCs in developing and supporting standardized maintenance processes.

           Funds Authorization and Accounting Systems. The DON uses the Program
           Budget and Information System (PBIS) and the Standard Accounting and
           Reporting System (STARS) automated financial systems to account for ship
           maintenance and repair funds. Each quarter, the DON uses PBIS to transfer
           budget authority for ship maintenance and repair funds to the CFFC and other
           organizations that, in turn, send the funds to the RMCs.1 The RMCs then have the
           authority to obligate funds on behalf of the CFFC. The RMCs obligate funds in
           STARS, the official accounting system used by the DON to record obligations.
           According to a CFFC representative, STARS information should be reconciled to
           PBIS at the end of each fiscal year.

1
    Budget authority is the authority that becomes available during the year to enter into obligations that
    result in immediate or future outlays of Government funds.

                                                         1
           Regional Maintenance Centers. The RMCs are operational shore activities led
           by an RMC commander. Each RMC is responsible for the coordination and
           execution of ship repairs and modernization. RMCs are also responsible for the
           budgeting, procurement, contract administration, and technical direction of their
           assigned ships. Each RMC includes the following offices:

                  Finance Office. The finance office manages budgetary controls and
           obligates funds for the RMCs. It also performs tri-annual reviews of obligations
           to ensure their validity.

                  Contracts Office. Contracting officers monitor contractor performance
           based on feedback from the waterfront operations personnel. Contracting office
           personnel are responsible for creating and approving contracting actions, such as
           contract modifications.

                   Waterfront Operations Office. The waterfront operations office plans
           ship maintenance and repair projects, coordinating with private contractors. It
           also provides oversight for all contractor work accomplished aboard ships. The
           waterfront operations office has maintenance teams to monitor performance of
           ship maintenance and repair projects. The maintenance teams consist of a port
           engineer, a project manager, and a production supervisor, among others.

           Ship Maintenance and Repair Contracts. The Mid-Atlantic, Southeast, and
           South Central RMCs use three types of contracts when contracting with the
           private sector for ship maintenance and repair projects: multi-ship/multi-option
           (MSMO) contracts, indefinite-delivery/indefinite-quantity (IDIQ) contracts, and
           firm-fixed-price contracts. Regardless of the contract strategy used, the contracts,
           options, or orders serve as support for the obligation amount recorded within
           STARS.

                   MSMO. MSMO contracts are most commonly used. They are
           cost-reimbursable contracts awarded to a prime contractor. NAVSEA awards
           these contracts for the base year plus several option years. Ship maintenance and
           repair activities use the contract for the repairs to an entire ship class.2 Each ship
           maintenance and repair project represents a contract option, and the RMC
           contracting officer exercises these options by creating modifications to the
           contracts. The RMCs work with contractors to plan and execute the work for
           each option.

                  IDIQ. IDIQ contracts provide for an indefinite quantity of supplies and
           services over a fixed period. The RMC awards contracts to contractors for a
           period of time, and the RMC prepares individual delivery orders for services
           when needed.

                   Firm-Fixed-Price. Firm-fixed-price contracts are for supplies and
           services performed at a fixed price and are not adjusted for the contractor’s costs
           in performing the contract. The Southeast RMC uses this contract type for ship
           maintenance and repair projects; however, the Southeast RMC plans to replace
           firm-fixed-price with MSMO contracts as the firm-fixed-price contracts expire.
2
    A ship class is a group of ships of similar design.

                                                          2
Objectives
     Our overall audit objective was to evaluate whether the DON correctly obligated
     funds for ship maintenance and repair. Specifically, we tried to determine
     whether the DON has obligated funds for ship maintenance and repair in
     accordance with applicable federal and DoD regulations. See Appendix A for a
     discussion of the scope and methodology and prior coverage related to the
     objective.

Review of Internal Controls
     We identified a material internal control weakness as defined by DoD Instruction
     5010.40, “Managers’ Internal Control (MIC) Program Procedures,” January 4,
     2006. Specifically, existing DON guidance does not clearly define what
     constitutes a specific and definite need when obligating funds on ship
     maintenance and repair contracts. Implementing all recommendations in this
     report will correct this weakness. A copy of the final report will be provided to
     the senior official responsible for internal controls in the Department of the Navy.




                                          3
            Obligations for Contingent Liabilities
            The Mid-Atlantic, Southeast, and South Central Regional Maintenance
            Centers inappropriately obligated funds for contingent liabilities on ship
            maintenance and repair contracts because its business practices did not
            comply with established laws and regulations. As a result of these
            inappropriate obligations, at least $103 million of Commander, U.S. Fleet
            Forces Command Operation and Maintenance funds were not available for
            other ship maintenance and repair needs.

Obligation Process
     Each quarter, CFFC provides ship maintenance and repair budget authority to the
     Mid-Atlantic, Southeast, and South Central RMCs, which allows them to commit
     or obligate funds. Commitments are the administrative reservation of funds in
     anticipation of an obligation. The amount recorded as a commitment is the
     estimated cost of goods or services. Obligations are recorded when the Federal
     Government enters into a legally binding agreement for the payment of specific
     goods and services. This can occur when an agency places an order or signs a
     contract. Federal laws, DoD regulations, and DON guidance address the amount
     to be recorded as an obligation and when to obligate funds.

     Section 1501, Title 31, United States Code. Section 1501, title 31, United States
     Code (31 U.S.C. 1501) states that an amount should only be recorded as an
     obligation when supported by documentary evidence of an agreement between an
     agency and another party. The obligation must be made within the period of the
     appropriation’s availability and must be used for specific goods to be delivered or
     services to be provided.

     Section 1502, Title 31, United States Code. Section 1502, title 31, United States
     Code (31 U.S.C. 1502) states that the balance of an appropriation is available to
     pay expenses incurred during the time the appropriation was available for
     obligation. The balance may also be used to complete contracts made within the
     period the appropriation was available for obligation.

     DoD Regulation 7000.14R, “DoD Financial Management Regulation,”
     Volume 3, Chapter 8, “Standards for Recording and Reviewing
     Commitments and Obligations,” November 2000. The DoD Financial
     Management Regulation (DoD FMR) states that a contingent liability should be
     recorded as an obligation when a modification is executed or an adjustment is
     made based on the occurrence of an event that determines the amount of the
     liability. In addition, the regulation states that when a contract is awarded, an
     obligation should be recorded for the total estimated cost provided by the
     contract. For cost-plus-award-fee contracts, the obligation for the award fee
     should not be recorded until the fee has been earned.

     Joint Fleet Maintenance Manual, Volume 7, “Contracted Ship
     Maintenance.” The Joint Fleet Maintenance Manual (JFMM) states that it is
     extremely important that unobligated funds be returned to the CFFC as soon as
     any excess is identified so that funds may be applied to other requirements before
                                          4
           the appropriation expires. If additional funds are required for the completion of
           contract changes after the end of the fiscal year, the RMCs are to request the
           funds from the CFFC. Contract modifications that are outside the scope of the
           contract are chargeable to funds current at the time the modification is authorized.
           The JFMM also states that it is the responsibility of the maintenance team to
           authorize contracting officers to commit funds for growth work.3

           DON, Navy/Marine Corps Award-Fee Guide, July 2004. The award fee guide
           states that an amount for a potential award fee should be committed as a
           contingent liability prior to the determination that the award fee has been earned.
           Obligation of the earned award fee amount occurs after the contractor’s
           performance is evaluated and a contract modification has been issued.

Contingent Liability Obligations
           The Mid-Atlantic, Southeast, and South Central RMCs inappropriately obligated
           funds for contingent liabilities on ship maintenance and repair contracts.
           Contingent liabilities are a set of circumstances that create the possibility of a
           future loss. The circumstance will ultimately be resolved when one or more
           events occur or fail to occur. A contingent liability should be committed as an
           estimated amount for additional obligations that probably will materialize. The
           commitment of the contingent liability becomes an obligation once there is a
           binding agreement for specific goods and services. Table 1 provides a breakdown
           of the contingent liability obligations we found, identified by type.

                              Table 1. Obligations for Contingent Liabilities

                  Contingent
                  Liabilities                Obligation Documents                   Obligation Amount

             Award Fee Pools4                            395                                 $ 48,564,904

             Growth Pools                                125                                    39,098,860
             Reservation Pools                            44                                      1,065,378
             Premium Pools                                34                                      4,896,348

             Miscellaneous                                   3                                    9,874,428
             Documents

             Total                                                                           $103,499,918



           Award Fee Pools. RMC contracting officers obligated approximately $48.6
           million on 395 MSMO contract modifications for award fee pools prior to the
3
    Growth work is any additional work that is identified after contract award or finalization that is related to
    a work item included in the contract award.
4
    A pool is a sum of money put away for a particular purpose.

                                                         5
          awards being earned. An award fee pool is an amount of funds used as an
          incentive for the contractor to meet various performance measures. An award fee
          board meets biannually to evaluate contractor performance and decide how much
          contractors have earned, based on their progress to date. Depending on their
          performance level, contractors can receive all or a portion of the award fee pools.

          On all 395 MSMO contract modifications, the contracting officers included the
          entire potential award fee pool within the amount awarded on the contract
          modification. The contract award amount corresponded to an obligation amount
          recorded in STARS. This shows that the entire award fee pool was obligated at
          the time the contract was awarded, before the contractor earned the award fee.
          For example, the Mid-Atlantic RMC contracting officers obligated $2.1 million
          for the award fee pool, on a contract modification awarded for $21.4 million, prior
          to the contractor earning the fee.

          Growth Pools. RMC contracting officers obligated approximately $39.1 million
          on 125 MSMO contract modifications for growth pools. Growth pools are a
          percentage added to the total value of the contract amount for anticipated
          unknown work. Each ship maintenance and repair project consists of multiple
          work items or tasks required to complete repair of the ship. According to RMC
          personnel, the RMCs can use growth pool funds to complete work related to any
          work item during a ship maintenance and repair project. In one example, at the
          Mid-Atlantic RMC, contracting officers obligated approximately $2.3 million,
          almost 10 percent of the award amount, in a growth pool prior to the identification
          of the work on a contract modification.

          According to RMC officials, historical data covering repairs made to a common
          class of ship supported the growth pool amounts. We did not find evidence of the
          historical data in the contract files that would support the growth pool amounts.
          When the contracting officers responsible for the contracts were asked to provide
          other historical support for the growth pool amounts, they were unable to do so.
          In addition, the contract files did not identify what work would be completed
          using the growth pool funds.

          A contracting officer at the Mid-Atlantic RMC stated that a Technical Analysis
          Report supported the growth pool percentage.5 When a Technical Analysis
          Report was available for review, the report provided a statement that the growth
          pool percentage applied was fair and reasonable, but it did not contain data to
          support this determination.

          Reservation Pools. RMC contracting officers at the Mid-Atlantic and South
          Central RMCs obligated approximately $1.1 million on 44 MSMO contract
          modifications, firm-fixed-price contracts, and IDIQ contracts for reservation
          pools. According to the Regional Maintenance Officer memorandum,
          “Reservation Business Rules,” November 22, 2006, a reservation pool is “known
          work which cannot be fully defined in advance.” The reservation pools are work-
          item specific. An example from a contract modification of a reservation pool for
          one work item is as follows:

5
    A Technical Analysis Report is a documented examination and evaluation by the Government of the
    contractor’s proposal for reasonability.

                                                    6
       Provide 250 man-days of labor and $50,000 of material to Assist Ship’s
       Force in accomplishment of work beyond the capability of Ship’s Force
       as directed by the SUPERVISOR. Total cost greater or less than above
       man-day and dollar amounts, when authorized, will be subject to an
       equitable adjustment.

When questioned, NAVSEA officials stated that the reservation pools were for
emergent work and were based on historical averages for similar repairs to ships
of the same type. We did not find evidence in support of the historical averages
in the contract files reviewed for MSMO contract modifications. There was also
no support for the estimated labor and materials used for the reservation pool.
When the contracting officers responsible for the contracts were asked to provide
support for the reservation pool amounts, they were unable to do so. Although
reservation pool amounts were associated with specific work items, the
reservation amounts were for work that may or may not occur.

Premium Pools. Mid-Atlantic RMC contracting officers obligated
approximately $4.9 million on 34 MSMO contract modifications for premium
pools related to anticipated overtime work. According to the contracting officers,
premium pools fund overtime work for any work item completed during the entire
ship maintenance and repair project. For example, contracting officials awarded
and obligated approximately $665,000 for a premium pool for one contract
modification prior to the need for the overtime work. The contract files for the
contract modifications reviewed did not contain support for the amount of
estimated overtime work included in the premium pool. The specific work items
the premium pool funds were associated with were not included in the contract
files reviewed. When the contracting officers responsible for the contracts were
asked to provide support for the premium pool amounts, they were unable to do
so.

Miscellaneous Documents. In September 2006, finance officials at the
Mid-Atlantic and Southeast RMCs obligated approximately $9.9 million on three
miscellaneous documents for anticipated needs on existing contracts. The RMCs
use miscellaneous documents to obligate funds that are not associated with a
specific contract or modification. This practice reserves a pool of money for
future RMC needs and avoids the need to request funds from the CFFC. The
CFFC was unaware that the obligations made by the RMCs were not for valid FY
2006 needs. According to a CFFC representative, the CFFC relies on the
obligation reviews performed at the RMCs to determine the validity of the
obligations.

Documentation supporting the obligation of funds at fiscal year-end on
miscellaneous documents was either insufficient or nonexistent. For example, at
the Mid-Atlantic RMC, $3 million was obligated on a miscellaneous document on
September 30, 2006. According to an e-mail from an RMC finance officer, the
$3 million consisted of approximately $1.6 million in obligations for material
overruns, $750,000 in anticipated growth work, $325,000 related to a pending
legal claim, and $320,000 for growth actions in progress. However, the
documentation provided did not support the obligation amounts as of
September 30, 2006. On September 19, 2007, $2 million was deobligated from
this document, further supporting our conclusion that the obligation amount on

                                         7
    September 30, 2006 did not represent a valid specific need of the RMC at that
    time.

Regional Maintenance Center Business Practices
    RMC business practices did not comply with established laws and regulations
    when obligating funds for ship maintenance and repair contracts. Specifically, the
    RMCs obligated funds for award fee pools, growth pools, reservation pools, and
    premium pools prior to the existence of a specific, definite need. In addition,
    finance officers at two RMCs obligated funds at fiscal year-end for anticipated
    needs of the next fiscal year on miscellaneous documents. These business
    practices violate 31 U.S.C. 1501, the DoD FMR, the JFMM, and the DON,
    Navy/Marine Corps Award-Fee Guide. In addition, the obligation of funds may
    have violated 31 U.S.C. 1502.

    Obligation of Award Fee Pools. The obligation of award fee pools violates the
    DoD FMR, volume 3, chapter 8 and the DON, Navy/Marine Corps Award-Fee
    Guide because the obligation occurs before the award fee is earned. According to
    the DON, Navy/Marine Corps Award Fee Guide, a contract modification
    obligates funds for the award fee amount after the Award Fee Evaluation Board
    determines the fee earned by the contractor. RMC personnel believed that funds
    to pay for the award fee would not be available at the time the fee was earned.
    Therefore, they obligated the award fee pools in advance. The RMCs should
    obligate the amount of the award fee earned by contract modification after the
    award fee board determines the award fee amount earned.

    Obligation of Growth Pools. The obligation of funds for the growth pools
    violates 31 U.S.C. 1501 and the DoD FMR, volume 3, chapter 8. Although the
    pool is associated with the cost of ship maintenance and repair projects, growth
    pools are not associated with specific work items or tasks. In addition, the
    obligation of funds may violate 31 U.S.C. 1502, because the obligation is for
    anticipated needs that may occur after the appropriation expires. Also, the
    obligation of funds for growth pools violates the JFMM, which specifies that
    RMCs may only commit funds for growth work. In order to have funds available
    when the additional work is necessary, the RMCs are obligating funds before the
    requirements are known or a sufficient description of the specific products or
    services needed has been developed. The RMCs should obligate funds by
    contract modification for growth work, only at the time of identification, with
    contracting officer approval, and with a negotiated price for the work.

    Obligation of Reservation Pools. The obligation of funds for reservation pools
    violates 31 U.S.C. 1501 and the DoD FMR, volume 3, chapter 8, because the
    work is not specific or fully defined, but merely anticipated at the time the funds
    are obligated. In addition, the obligation of funds may violate 31 U.S.C. 1502,
    because the obligation is for anticipated needs that may occur after the
    appropriation expires. The Regional Maintenance Officer memorandum,
    “Reservation Business Rules,” states that reservation pools are “for work that
    cannot be fully defined.” The RMCs obligated funds for reservation pools in
    advance, so that funds would be available when the work became necessary. The
    RMCs should obligate funds for reservation work by contract modification at the

                                         8
time of identification, with contracting officer approval, and with a negotiated
price for the work.

Obligation of Premium Pools. The obligation of funds for premium pools
violates 31 U.S.C. 1501 and the DoD FMR, volume 3, chapter 8, because the
obligations were not work-item specific. In addition, the obligation of funds may
violate 31 U.S.C. 1502, because the obligation is for anticipated work that may or
may not be necessary. The RMCs obligated funds for premium pools based on
the overall cost of the ship maintenance and repair project in order to ensure that
funds would be available if the need for overtime work arose. The RMCs should
obligate funds for overtime work by contract modification, at the time of
identification of the required overtime work, and with contracting officer
approval.

Obligation of Miscellaneous Documents. The obligation of funds at fiscal year-
end on miscellaneous documents in anticipation of specific, definite needs
violates 31 U.S.C. 1501; the DoD FMR, volume 3, chapter 8; and the JFMM. In
addition, the obligation of funds may violate 31 U.S.C. 1502, because the
obligation is for anticipated needs that most likely will occur after the
appropriation has expired. CFFC officials indicated that the obligation of funds at
year-end required documentation supporting a specific and definite need of the
fiscal year for which it was obligated. The JFMM requires organizations to return
funds not obligated at year-end to the CFFC. In addition, the JFMM requires
approval from the CFFC or a higher office for the use of prior year funds in the
current year. The RMCs should obligate, by contract modification, prior-year
funds for valid needs at the time the need is identified and after CFFC or higher
level approval.

DON Position. RMC officials indicated that they adopted these business
practices because they believed that otherwise, funds would not be available from
the CFFC when valid needs arose. The following e-mail from a project manager
to a contracting officer illustrates the pressure placed on RMC officials to obligate
funds or risk the loss of funds in the future:
        . . . we need to obligate funds IMMEDIATELY. The front office just
       pulled my ear, Fleet frowns on a large sum of unobligated funds, makes
       it difficult for MARMC [Mid-Atlantic Regional Maintenance Center]
       to receive additional funding. . .

In addition, NAVSEA officials indicated that waiting for approval for the use of
these funds would cause unnecessary delays in work performance. By obligating
funds for contingent liabilities on contract modifications, the contracting officers
and other RMC personnel do not have to wait on the approval and receipt of funds
requested from the CFFC, thereby avoiding the future loss of funds and
anticipated work delays.

Mid-Atlantic RMC legal counsel requested an official DON position regarding
the obligation and use of pools on MSMO contracts. However, neither the ASN
(FM&C) nor NAVSEA legal counsel provided the RMCs with any guidance that
either supported or disputed the practice of obligating funds for these pools,
which allowed the improper business practices to continue. At all locations

                                         9
    visited, RMC representatives indicated the need for resolution on whether funds
    should be obligated for award fee pools, reservation pools, growth pools,
    premium pools, or miscellaneous documents.

Conclusion
    The RMCs have inappropriately obligated at least $103 million of CFFC funds,
    making them unavailable for other ship maintenance and repair needs. By
    inappropriately obligating funds for contingent liabilities, the CFFC and DON
    received an inaccurate representation of available funds and were unable to make
    informed decisions on ship maintenance and repair priorities. Although some
    DON personnel have suggested that the practice of obligating funds in advance
    for award fees and contingent liability pools will decrease costs and shorten ship
    maintenance response time, there is no evidence to support these statements.
    These opinions also do not exempt the RMCs from complying with Federal law,
    DoD regulations, and other applicable guidance. The DON needs to issue
    guidance regarding the use of these business practices for MSMO contracting in
    order to ensure that business practices are implemented that follow established
    laws and regulations. In addition, as the agency responsible for programming and
    budgeting resources, the CFFC should prohibit the practice of obligating funds for
    all contingent liabilities for which they are the responsible command.

Management Actions
    After communicating our concerns to ASN(FM&C) and NAVSEA legal counsels
    about the obligation of funds for contingent liabilities, ASN(FM&C) responded
    with a memorandum dated November 28, 2007. In the memorandum,
    ASN(FM&C) agreed with our conclusion that it should stop the business practice
    of obligating funds for award fees pools and growth pools. In addition,
    ASN(FM&C) indicated that the practice of obligating funds on miscellaneous
    documents for contingent liabilities had been discontinued.

Recommendations and Management Comments
    1. We recommend that the Assistant Secretary of the Navy (Financial
    Management and Comptroller):

            A. Issue guidance prohibiting the obligation of funds for award fee
    pools, growth pools, and premium pools for ship maintenance and repair
    contracts.

             B. Issue guidance prohibiting the obligation of funds for contingent
    liabilities at year-end on miscellaneous documents for ship maintenance and
    repair contracts.

           C. Issue guidance that prohibits the current practice of obligating
    funds for reservation pools.


                                        10
Management Comments. The Assistant Secretary of the Navy (Financial
Management and Comptroller) concurred and stated that the DON will issue
guidance by May 31, 2008 prohibiting the current practice of obligating funds for
award fee pools, growth pools, premium pools, and reservation pools. In
addition, the DON will issue policy prohibiting the obligation of funds on
miscellaneous documents.

Audit Response. The Assistant Secretary of the Navy (Financial Management
and Comptroller) comments were responsive and conform to requirements; no
additional comments are needed.

2. We recommend that the Commander, U.S. Fleet Forces Command:

       A. Develop and implement a plan to monitor the obligation of funds
at the Regional Maintenance Centers to ensure that the practice of obligating
funds up front for award fees, growth pools, and premium pools for ship
maintenance and repair contracts is discontinued and that amounts for these
items are deobligated on current contracts.

       B. Develop and implement a plan to monitor the obligation of funds
at year-end on miscellaneous documents to ensure that only specific and
definite needs of the year ending are obligated.

Management Comments. The Assistant Secretary of the Navy (Financial
Management and Comptroller) provided comments on behalf of the Commander,
U.S. Fleet Forces Command. The Assistant Secretary of the Navy concurred and
stated that the Commander will develop and implement plans to monitor the
obligation of funds for award fee pools, growth pools, and premium pools and the
obligation of year-end funds on miscellaneous documents. In addition, the
Commander will ensure that funds are deobligated on current contracts that were
inappropriately obligated. The plans will be developed and implemented by
July 15, 2008.

Audit Response. The Assistant Secretary of the Navy (Financial Management
and Comptroller) comments were responsive and conform to requirements; no
additional comments are needed.

3. We recommend that the Commander, Regional Maintenance Centers:

      A. Discontinue the obligation of award fee pools and obligate the fee
when earned.

        B. Discontinue the obligation of funds for growth pools, premium
pools, and miscellaneous documents.

       C. Deobligate funds that have been inappropriately obligated for
award fee pools, growth pools, reservation pools, premium pools, and
miscellaneous documents on current contract actions.




                                   11
            D. Revise guidance established in the Regional Maintenance Officer
     memorandum, “Reservation Business Rules,” November 22, 2006, to comply
     with established laws and regulations.

     Management Comments. The Assistant Secretary of the Navy (Financial
     Management and Comptroller) provided comments on behalf of the Commander,
     Regional Maintenance Centers. The Assistant Secretary of the Navy concurred
     and stated the Commander will issue a directive to the Regional Maintenance
     Center community on or before July 15, 2008. This directive will require the
     RMC community to discontinue the inappropriate obligation practices cited in this
     recommendation and deobligate funds on current contracts that were
     inappropriately obligated.

     Audit Response. The Assistant Secretary of the Navy (Financial Management
     and Comptroller) comments were responsive and conform to requirements; no
     additional comments are needed.

Other Matters of Interest
     We identified two errors in the CFFC FY 2006 budget reporting process during
     the course of the audit. The two errors identified were:

     Ship Depot Maintenance Fund Classifications. For each CFFC ship repair
     organization, the certified year-end amount shown in the PBIS should match the
     year-end obligation amounts reported in STARS. For FY 2006, the overall totals
     between STARS and PBIS matched. However, a difference of $124 million was
     identified for one category of ship maintenance and repair funds. When
     questioned, a CFFC comptroller official explained that the amount was
     incorrectly classified in STARS. This error caused STARS to underreport
     obligations for ship depot maintenance funds for the overhaul category.

     Certified Year-End Maintenance Data. The CFFC provides certified year-end
     FY 2006 ship depot maintenance dollar values to the ASN(FM&C) each year.
     The ASN(FM&C) uses the reported amounts to support the budget for ship depot
     maintenance funds in future years. For FY 2006, CFFC certified that it spent
     $1.384 billion for the restricted availability category of ship depot maintenance
     funds.

     When questioned, CFFC officials said that the amount provided to the
     ASN(FM&C) was incorrect and should have been $1.577 billion. As a result,
     CFFC certified to the ASN(FM&C) $193 million less than what was actually
     spent for restricted availability ship depot maintenance funds by the CFFC in FY
     2006.

             After communicating our concerns to CFFC staff, they recognized the
     errors and immediately corrected the information in their systems to reflect the
     correct amounts.




                                         12
Appendix A. Scope and Methodology
   We conducted this performance audit from March 2007 through February 2008 in
   accordance with generally accepted government auditing standards. Those
   standards require that we plan and perform the audit to obtain sufficient,
   appropriate evidence to provide a reasonable basis for our findings and
   conclusions based on our audit objectives. We believe that the evidence obtained
   provides a reasonable basis for our finding and conclusions, based on our audit
   objective.

   We limited our review of the obligation of funds for ship maintenance and repair
   to Commander, U.S. Fleet Forces Command (CFFC) ship maintenance and repair
   organizations. This was because of the large number of ship maintenance and
   repair organizations within the DON, as well as the potential that the CFFC and
   U.S. Pacific Fleet organizations operate differently. To review the obligation of
   funds for ship maintenance and repair at the CFFC organizations, we determined
   that the primary type of funds used by shipyards, Regional Maintenance Centers
   (RMCs), and contractors is Operation and Maintenance, Navy, Ship Depot
   Maintenance. We then limited the scope of our review to funds obligated by the
   CFFC RMCs for private contracting in FY 2006 and in the first two quarters of
   FY 2007. The reason for this limitation was the high dollar value, volume of
   transactions, and number of contract actions awarded for cost-reimbursable
   contracts at the RMCs. There were three types of contract strategies used to
   award Operation and Maintenance, Navy, Ship Depot Maintenance funds to
   private contractors: multi-ship/multi-option (MSMO) contracts, indefinite-
   delivery/indefinite-quantity (IDIQ) contracts, and firm-fixed-price contracts.

   To accomplish the audit objectives, we met with the following offices and
   reviewed the following data from March 16, 2000 through August 22, 2007:

      •   We met with representatives from the Assistant Secretary of the Navy
          (Financial Management and Comptroller), Office of the Chief of Naval
          Operations (N43), Naval Sea Systems Command, CFFC, Norfolk Naval
          Shipyard, Mid-Atlantic RMC, South Central RMC, and Southeast RMC.

      •   We reviewed funding documentation and budgetary reports to determine
          whether the amounts obligated for ship maintenance and repair contracts,
          modifications, and orders were fully supported by defined work.

      •   We reviewed applicable laws and regulations, including 31 U.S.C 1501;
          31 U.S.C. 1502; the DoD FMR, the Joint Fleet Maintenance Manual and
          the Department of Navy, Navy/Marine Corps Award Fee Guide. These
          laws and regulations were reviewed to determine when obligations for
          ship maintenance and repair should be recorded and for what amount.




                                      13
             •   We reviewed 1,561 MSMO modifications, 15 IDIQ orders, and three firm-
                 fixed-price contracts for ship maintenance and repair, valued at over
                 $622 million. Table 2 provides a breakdown of modifications, orders, and
                 contracts reviewed at each regional maintenance center.

                      Table 2. Modifications, Orders, and Contracts Reviewed
                                                                           Firm-
 Regional                                                                  Fixed-
Maintenance        MSMO                            IDIQ     Award          Price       Award
  Center         Modifications   Award Amount      Orders   Amount        Contracts    Amount

Mid-
Atlantic                1,324      $550,447,766         8   $13,243,265           -             -
RMC

South
Central                   193        23,808,835         2      896,954            -             -
RMC

Southeast
                           44         7,609,206         5      614,664           3    $25,698,708
RMC

   Total                1,561      $581,865,807        15   $14,754,883          3    $25,698,708



          Use of Computer-Processed Data. We did not evaluate the general and
          application controls related to the Command Financial Management System and
          Standard Accounting and Reporting System, which track amounts spent by
          individual ship repair organizations for ship depot maintenance. We did not
          evaluate the controls because the information was used only to develop an
          understanding of the fund obligation processes for ship maintenance and repair. The
          results of the audit were not affected by not evaluating the controls.

          Government Accountability Office High-Risk Area. The Government
          Accountability Office has identified several high-risk areas in DoD. This report
          provides coverage on one aspect of the DoD Financial Management high-risk
          area.

Prior Coverage
          During the last 5 years, the Government Accountability Office and the
          Congressional Budget Office have issued two reports discussing topics related to
          the obligation of funds for ship maintenance and repair. Unrestricted Government
          Accountability Office reports can be accessed at http://www.gao.gov.
          Unrestricted Congressional Budget Office reports can be accessed at
          http://www.cbo.gov.



                                                  14
Government Accountability Office
     Report 03-275, “Improved Reviews Needed to Ensure Better Management of
     Obligated Funds,” January 2003

Congressional Budget Office
     Congressional Budget Office Review, “Review of Proposed Congressional
     Budget Exhibits for the Navy’s Mission-Funded Shipyards,” April 14, 2006




                                       15
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Naval Inspector General
Auditor General, Department of the Navy
Commander, U.S. Fleet Forces Command
Commander, Naval Sea Systems Command
Commander, Regional Maintenance Centers

Department of the Air Force
Auditor General, Department of the Air Force

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement,
  Committee on Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs,
  Committee on Oversight and Government Reform




                                          16
Department of the Navy Comments




                    17
18
19
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Paul J. Granetto
Patricia A. Marsh
Kenneth B. VanHove
Carrie A. Wade
Shelly M. Farber
Randall M. Critchlow
Daniel D. Carlquist
Sarah M. Beckwith
Annette D. Brown
Ellen Kleiman-Redden
